<html>
<title> - [H.A.S.C. No. 113-10]THE ROLE OF INTELLIGENCE IN THE DEPARTMENT OF DEFENSE</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]


                                     

                         [H.A.S.C. No. 113-10]
=====================================================================
 
         THE ROLE OF INTELLIGENCE IN THE DEPARTMENT OF DEFENSE

                               __________

                                HEARING

                               BEFORE THE

    SUBCOMMITTEE ON INTELLIGENCE, EMERGING THREATS AND CAPABILITIES

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                           FEBRUARY 27, 2013


                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     



    SUBCOMMITTEE ON INTELLIGENCE, EMERGING THREATS AND CAPABILITIES

                    MAC THORNBERRY, Texas, Chairman

JEFF MILLER, Florida                 JAMES R. LANGEVIN, Rhode Island
JOHN KLINE, Minnesota                SUSAN A. DAVIS, California
BILL SHUSTER, Pennsylvania           HENRY C. ``HANK'' JOHNSON, Jr., 
RICHARD B. NUGENT, Florida               Georgia
TRENT FRANKS, Arizona                ANDRE CARSON, Indiana
DUNCAN HUNTER, California            DANIEL B. MAFFEI, New York
CHRISTOPHER P. GIBSON, New York      DEREK KILMER, Washington
VICKY HARTZLER, Missouri             JOAQUIN CASTRO, Texas
JOSEPH J. HECK, Nevada               SCOTT H. PETERS, California
                       Catherine McElroy, Counsel
                 Tim McClees, Professional Staff Member
                     Julie Herbert, Staff Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS

                                  2013

                                                                   Page

Hearing:

Wednesday, February 27, 2013, The Role of Intelligence in the 
  Department of Defense..........................................     1

Appendix:

Wednesday, February 27, 2013.....................................     9
                              ----------                              

                      WEDNESDAY, FEBRUARY 27, 2013
         THE ROLE OF INTELLIGENCE IN THE DEPARTMENT OF DEFENSE
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Langevin, Hon. James R., a Representative from Rhode Island, 
  Ranking Member, Subcommittee on Intelligence, Emerging Threats 
  and Capabilities...............................................     8
Thornberry, Hon. Mac, a Representative from Texas, Chairman, 
  Subcommittee on Intelligence, Emerging Threats and Capabilities     1

                               WITNESSES

Flynn, LTG Michael T., USA, Director, Defense Intelligence Agency     5
Vickers, Dr. Michael G., Under Secretary of Defense for 
  Intelligence, U.S. Department of Defense.......................     2

                                APPENDIX

Prepared Statements:

    Vickers, Dr. Michael G., joint with LTG Michael T. Flynn.....    13

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    [There were no Questions submitted post hearing.]
         THE ROLE OF INTELLIGENCE IN THE DEPARTMENT OF DEFENSE

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
            Subcommittee on Intelligence, Emerging Threats 
                                          and Capabilities,
                      Washington, DC, Wednesday, February 27, 2013.
    The subcommittee met, pursuant to call, at 4:05 p.m., in 
room 2212, Rayburn House Office Building, Hon. Mac Thornberry 
(chairman of the subcommittee) presiding.

OPENING STATEMENT OF HON. MAC THORNBERRY, A REPRESENTATIVE FROM 
TEXAS, CHAIRMAN, SUBCOMMITTEE ON INTELLIGENCE, EMERGING THREATS 
                        AND CAPABILITIES

    Mr. Thornberry. The subcommittee will come to order. And 
let me thank the witnesses and guests for your patience, as we 
have had votes that went on longer than expected. The other 
administrative note is that Mr. Langevin is on his way and will 
be here momentarily. But I want to go ahead and begin the 
hearing, and whenever he arrives, before or after, we will give 
him the opportunity to make his opening statement.
    I want to welcome members, witnesses, and guests to this 
hearing on the role of intelligence in the Department of 
Defense [DOD]. I suspect our witnesses will agree that the 
central role of intelligence is growing rapidly for our 
warfighters and for the Nation as a whole in an increasingly 
complex, fast-changing world. And as one of our witnesses 
testified at our last hearing, today there is no part of the 
world that we can ignore. Clause 1(c) of rule X of the House 
rules place responsibility on the House Armed Services 
Committee for, quote, ``tactical intelligence and intelligence-
related activities of the Department of Defense,'' end quote.
    While the overall committee has always followed these 
issues closely, Chairman McKeon decided this year that we 
should focus more closely on the array of military intelligence 
issues. The committee rules now assign this subcommittee with 
responsibility for intelligence policy, including coordination 
of military intelligence programs, national intelligence 
programs, and DOD elements that are part of the Intelligence 
Community.
    The fact that Mr. Langevin, Chairman Miller, Dr. Heck, and 
I also serve on the House Permanent Select Committee on 
Intelligence helps ensure that Congress fulfills its 
responsibilities to the American people in conducting 
independent oversight and in making budgetary decisions on 
these crucial programs and agencies.
    Having responsibility for military intelligence, science 
and technology, special operations, cyber, and counter-weapons 
of mass destruction [WMD] helps give this subcommittee a broad 
and more integrated picture of many of the most challenging 
national security issues facing our Nation. Of course, these 
capabilities are some of those that we would undoubtedly rely 
upon in meeting some of the threats that arise, but they are 
also some of the capabilities that can help identify and 
prevent threats before they arise. Having both intelligence 
oversight and operational oversight enables us to have a more 
complete view of all that faces our warfighters.
    Today we want to look at the role intelligence plays in the 
Department of Defense. A primary focus for us will always be 
whether and how DOD intelligence is meeting the needs of the 
warfighters, wherever they are and whatever they may be asked 
to do. We also want to examine DOD's current intelligence 
requirements, including gaps in our knowledge and capabilities, 
integration of intelligence with military planning, 
organization and personnel issues, as well as DOD support to 
and from the broader Intelligence Community.
    We all, on both sides of the river, have our hands full. As 
the witnesses note in their written statement, intelligence 
budgets are declining even before the across-the-board cuts 
known as sequestration begin on Friday. But the world is not 
getting any safer. It is not getting any less complex. We have 
limited resources, but unlimited problems. That is part of what 
makes intelligence so crucial.
    More than ever, I think it is essential that the 
administration and those in uniform work together with us in 
Congress to use our resources as efficiently and as effectively 
as possible. And I look forward to working with both of our 
distinguished witnesses toward that goal.
    At this point, we will turn for the opening statements of 
our distinguished witnesses, the Under Secretary of Defense for 
Intelligence [USD(I)], Michael G. Vickers, and the Director of 
Defense Intelligence Agency [DIA], Lieutenant General Michael 
Flynn. And then, as I say, when Mr. Langevin gets here, we will 
have his opening statement.
    Dr. Vickers.

STATEMENT OF DR. MICHAEL G. VICKERS, UNDER SECRETARY OF DEFENSE 
          FOR INTELLIGENCE, U.S. DEPARTMENT OF DEFENSE

    Secretary Vickers. Thank you, Chairman Thornberry and 
distinguished members of the committee. General Flynn and I are 
pleased to appear before you today to discuss the importance of 
intelligence within the Department of Defense.
    The unclassified nature of the opening portion of this 
hearing precludes us from discussing in detail many aspects of 
Defense Intelligence, as well as sharing some of our greatest 
successes. We welcome the opportunity to meet in closed session 
to fully discuss Defense Intelligence capabilities and 
contributions with you.
    Before I discuss the importance of Defense Intelligence in 
achieving our national security objective, I would like to 
review some of our most pressing national security challenges.
    First and foremost, we seek nothing less than the strategic 
defeat of Al Qaeda--dismantling and defeating core Al Qaeda in 
the Pakistan-Afghanistan region, defeating its affiliates on 
the Arabian Peninsula, in Iraq and Syria, and in East and North 
Africa, and preventing the group from reconstituting.
    Second, we must successfully transition our mission in 
Afghanistan.
    Third, as the Arab world undergoes a historic transition, 
we must posture ourselves for the new normal that brings with 
it increased instability and violence, and we must accelerate 
the transition to a representative government in Syria.
    Fourth, we must prevent the proliferation of weapons of 
mass destruction and associated delivery systems, specifically, 
but not exclusively, with regard to Iran and North Korea.
    Fifth, we must defend against cyber threats.
    Sixth, we must deter and, if necessary, defeat aggression 
and ensure our continued access to the global commons and to 
critical regions such as East Asia. To be successful in this 
effort, we must be able to counter rapidly evolving anti-
access/aerial denial threats.
    Seventh, we must ensure that we continue to provide 
decisive intelligence and decision advantage to our national 
policymakers, and our operators and warfighters, and that we 
are postured to prevent strategic surprise.
    Finally, we must ensure the continued economic leadership 
of the United States. This is the foundation upon which our 
long-term national security rests.
    At the same time as our intelligence and defense budgets 
are declining, the challenges, as you noted, Mr. Chairman, are 
increasing and becoming more complex. Intelligence is a major 
source of U.S. advantage. It informs wise policy and it enables 
precision operations. It is our front line of defense.
    The continued war against Al Qaeda and instability in the 
Middle East and North Africa requires us to continue to enhance 
our counterterrorism capabilities. Our national security 
strategy in Asia will require significantly different 
investments over the next 15 years in order to obtain the 
intelligence, surveillance, and reconnaissance capabilities 
most appropriate to the unique challenges of ensuring access in 
the Pacific.
    Likewise, countering cyber threats and nuclear 
proliferation requires new resources, as well as new ways of 
operating. We are also improving our human intelligence 
capability by implementing the Defense Clandestine Service. 
Lastly, critical intelligence capability, such as our overhead 
and cryptologic architectures, continue to require 
modernization and recapitalization. Budgetary instability and 
the prospect of further deep cuts put these investments at 
risk.
    Defense Intelligence is comprised of the DOD organizations, 
infrastructures, and measures of intelligence and 
counterintelligence components of the Joint Staff, the 
combatant commands, the military services, the three combat 
support agencies, the Defense Intelligence Agency, the National 
Security Agency [NSA], and the National Geospatial Intelligence 
Agency [NGIA], and the National Reconnaissance Office [NRO]. I 
also exercise oversight of the security elements of the 
Department of Defense, including the Defense Security Service 
[DSS].
    Defense Intelligence has just under 60,000 civilians and 
123,000 military members supporting our national military 
intelligence missions both here at home and alongside our 
combat forces worldwide. Defense Intelligence partners at all 
levels with our counterparts in the broader Intelligence 
Community [IC], including the Director of National Intelligence 
[DNI], the Central Intelligence Agency [CIA], Department of 
Homeland Security [DHS], Federal Bureau of Investigation [FBI], 
and numerous other elements.
    Under Titles 10 and 50 of the United States Code, the 
Secretary of Defense has broad policy and budgetary 
responsibility for the intelligence and intelligence-related 
activities conducted by DOD components and personnel. In 
addition, under Title 50, the Secretary has several specific 
statutory responsibilities for elements of the IC that are part 
of DOD, including DIA, NGA, NSA, and the NRO.
    Consistent with the DNI statutory responsibilities, the 
Secretary is responsible for the continued operation of those 
elements as effective organizations for the conduct of their 
missions in order to satisfy DOD and IC requirements. Congress 
established the position of USD(I) in fiscal year 2003, 
enabling DOD to strengthen its management of Defense 
Intelligence. As the USD(I), I am the principal staff assistant 
and advisor to the Secretary regarding intelligence, 
counterintelligence, and security matters, and to that end, I 
exercise his authority, direction, and control over the defense 
agencies and DOD field activities that are defense 
intelligence, counterintelligence [CI], or security components.
    I am also dual-hatted as the Director of Defense 
Intelligence in the office of the DNI. The DNI and Secretary of 
Defense jointly established this position in 2007 to ensure the 
integration, collaboration, and information sharing between our 
two organizations.
    My close relationship with Director Clapper, himself a 
former USD(I) and someone intimately familiar with Defense 
Intelligence, enable us to work together seamlessly to manage 
resources in pursuit of our national security objective. We 
each manage our respective resource portfolios. The DNI 
executes the National Intelligence Program [NIP]. I execute the 
Military Intelligence Program [MIP].
    To characterize the relative scale of our portfolios in the 
fiscal 2013 President's budget request, the NIP totaled $52.6 
billion compared to $19.2 billion request to fund the MIP. DOD 
MIP funds intelligence, CI, and intelligence-related programs, 
projects, and activities that provide capabilities to 
effectively meet warfighter operational and tactical 
requirements. I also oversee the Department's broader 
Battlespace Awareness Portfolio, which includes the NIP, 
intelligence-related special access programs, and other 
intelligence-related activities.
    Let me close, Mr. Chairman and distinguished members of the 
committee, by thanking you for your support for Defense 
Intelligence. I am committed to working with the Congress and 
this subcommittee in its new responsibility to find the best 
way to continue to deliver intelligence advantage to our 
Nation, and I look forward to your questions.
    [The joint prepared statement of Secretary Vickers and 
General Flynn can be found in the Appendix on page 13.]
    Mr. Thornberry. Thank you, Dr. Vickers.
    General Flynn.

   STATEMENT OF LTG MICHAEL T. FLYNN, USA, DIRECTOR, DEFENSE 
                      INTELLIGENCE AGENCY

    General Flynn. Good afternoon, Chairman Thornberry, Ranking 
Member Langevin and distinguished members of this committee. 
Thanks for the opportunity to discuss the Defense Intelligence 
Agency and our contributions to the Department of Defense. I 
have been the director of DIA now for 7 months and I cannot 
overemphasize how proud I am to serve our Nation in this 
capacity.
    As our defense strategy highlights, our Nation is at a 
moment of transition. The global security environment presents 
increasingly complex challenges and a growing list of threats 
and adversaries. The demands on the U.S. intelligence system 
have skyrocketed in recent years and these demands are only 
expected to increase.
    That said, DIA's mission is to prevent strategic surprise 
by providing our warfighters and our national security leaders 
the best intelligence available on foreign nation-state 
military capabilities and military-like capabilities of non-
nation-state actors, as well as their intentions. With over 
16,000 employees in 262 locations around the world, including 
142 countries and 31 U.S. States, I believe DIA is well 
postured to accomplish that mission.
    Our workforce boasts an impressive range of skills 
necessary to accomplish our mission. For instance, over 5,000 
of our men and women have served on one or more deployments in 
combat zones in Iraq and Afghanistan, and more than 550 
employees currently are deployed in theater today. 
Additionally, over 50 percent of DIA's employees are assigned 
outside of Washington, DC. DIA people have proficiency in 54 
languages with more than 500 employees who speak a critical 
language, and we are planning to further expand our language 
capacity in the coming years.
    DIA's mission breaks down into two essential tasks, 
collection and analysis, and I would like to begin by outlining 
our collection capabilities first. As Director of DIA, I serve 
as the Defense Collection Manager, so I ensure that the agency 
provides robust intelligence collection requirements management 
that helps drive our collection in all-source analysis 
missions. Much of this activity is in direct support of our 
combatant commands and our service intelligence centers.
    These responsibilities include planning and assessing the 
Defense Department's intelligence collection requirements, 
managing the intelligence, surveillance, and reconnaissance of 
the Department, and ensuring the professionalization of the 
collection management career field. In addition to managing 
intelligence requirements, our specific collection operational 
capabilities fall into two categories. First is our human 
intelligence, counterintelligence, and Defense Attache System. 
And second is our measurement and signature intelligence 
collection capabilities.
    DIA gains vital information from our highly specialized 
overt and clandestine human intelligence [HUMINT] activities. 
DIA manages the Defense Clandestine Service, which leverages 
our unique military access and proficiencies to fulfill defense 
and national level intelligence requirements in a fully 
integrated operational environment with our interagency 
partners.
    DIA also manages the Defense Attache System, which trains, 
directs, and supports U.S. military attaches assigned to U.S. 
embassies or consulates in 139 countries around the world. 
These talented attaches work for the U.S. ambassador as members 
of the country team and coordinate military activities with the 
host nation's Ministry of Foreign Affairs and DOD equivalents.
    Further, in close coordination with the Defense Clandestine 
Service and the Defense Attache System, DIA's 
counterintelligence professionals identify and neutralize 
threats posed by hostile foreign intelligence and terrorist 
groups. As Director of DIA, I am also the Defense Department 
HUMINT and CI manager. In this management capacity, DIA leads, 
directs, and centrally manages the worldwide defense HUMINT and 
CI enterprise by ensuring that properly trained HUMINT and CI 
professionals, fully integrated across the defense and national 
HUMINT and CI communities, coordinate and deconflict their 
efforts to best support defense and national intelligence 
collection requirements.
    Second is our measurement and signature collection 
capability. DIA is responsible for managing the policy, 
requirements, and standards for this vital national 
intelligence mission. Measurement and signature intelligence 
[MASINT] capabilities primarily identify, measure, and track 
the unique signatures or attributes of all foreign military 
equipment and chemical, biological, and nuclear weapons. Aside 
from this core responsibility, DIA's technical collectors also 
use other techniques, such as biometrics, forensics, and 
document and media exploitation, to satisfy tactical to 
strategic intelligence requirements. While collection is a 
vital component of what we do, the foundation of DIA's mission 
is to provide all-source defense intelligence analysis in 
support of our warfighters, our military services, our Joint 
Staff, and our Nation's policymakers.
    Regardless of its source, whether it comes from open source 
or a Twitter feed, from an agent inside a terrorist group or a 
scientist abroad, from biometric data or a chemical signature 
left behind after a weapons test, or from overhead imagery or a 
cyber attack, DIA collects, analyzes, processes, and 
disseminates to our customers all-source analysis assessments 
and key judgments, painting as clear a picture as possible, 
enabling leaders at all levels to make better, more informed 
decisions.
    We are continuously seeking ways to apply the right mix of 
classified and open-source information that identifies future 
national security challenges and threats, and the people, 
trends, movements, ideologies, and social phenomena fueling 
them. From feedback received across our customer base that I 
stated above, to include our law enforcement partners and 
allied and coalition partners, what our analysts produce 
provides these customers, especially our troops in harm's way, 
a more decisive advantage in today's increasingly complex 
national security environment. That is our litmus test for 
judging our performance.
    As we transition from a decade of war and hard-won lessons 
learned, DIA is building on the best practices we have learned 
since September 11, 2001. Principally, we are focusing on the 
integration and fusion of intelligence and operations and the 
success of applying the full range of intelligence 
capabilities, such as HUMINT, signals intelligence [SIGINT], 
geospatial and cyber, against some of the hardest targets we 
face, whether those are state or non-state actors. This all 
must be done in close collaboration with our Intelligence 
Community and interagency partners, as well as our foreign 
partners.
    These two essential tasks, collection and analysis, 
represent critical components in our Nation's arsenal of 
intelligence weapons and are increasingly in demand during 
these very uncertain times. Because of the pace of events and 
this growing uncertainty, we find ourselves in an era where 
strategic warning cycles and timelines are much faster than 
they were even 5 years ago. So in all that we do, we must 
operate at our customers' speed and inside their decisionmaking 
cycles, no matter the time zone.
    To this end, my goal for DIA is simple: We will remain the 
best defense intelligence agency in the world and continue to 
provide world-class intelligence support to those men and women 
willing to sacrifice for this country. To do so, we must 
continue to carefully recruit, retain, and manage the talent 
that represents our Nation's national security future. This is 
vital.
    Before I conclude, I would like to take this opportunity to 
mention the impact that sequestration will potentially have on 
DIA. First, I am in complete agreement with Under Secretary 
Vickers and his complete statement, and I hope I have made 
clear that DIA is about putting our people first. We cannot 
accomplish our mission without the men and women who serve this 
Nation so well. The impact sequestration will have on an 
organization which depends on human resources for its 
capability is astoundingly complex and far-reaching. There is a 
geometric impact which includes not only the cost of lost 
opportunity, but also the cost of rebuilding the capability 
that we stand to lose.
    What we cannot predict is the real impact on national 
security of that lost capability. If we think that our 
adversaries will use this time to take a strategic pause or 
that we will somehow manage to stay ahead of the most 
potentially catastrophic intelligence issues while opting to 
take cuts against the low-threat areas, then we are deluding 
ourselves. The real cost of this action is in public insecurity 
and potential strategic surprise.
    Since it is very difficult to prove a negative, there is no 
way to know what we will have missed, nor to appreciate the 
cost of that missing intelligence. At best, we may never know 
what key intelligence we have missed as a result of 
sequestration. At worst, I fear we may find ourselves rehashing 
another major intelligence failure.
    Above all else, what defines DIA is the value our people 
bring to our operating forces, our Nation's military, and 
national security leaders, as well as our coalition and foreign 
partners who depend on our capabilities. Speaking truth to 
power is critical during these uncertain times and no other 
standard is more important. Thank you all for your service to 
our Nation, and I look forward to the questions in closed 
session.
    [The joint prepared statement of General Flynn and 
Secretary Vickers can be found in the Appendix on page 13.]
    Mr. Thornberry. Thank you.
    I would yield to the distinguished ranking member for any 
comments he would like to make.

  STATEMENT OF HON. JAMES R. LANGEVIN, A REPRESENTATIVE FROM 
  RHODE ISLAND, RANKING MEMBER, SUBCOMMITTEE ON INTELLIGENCE, 
               EMERGING THREATS AND CAPABILITIES

    Mr. Langevin. Thank you, Mr. Chairman, and I apologize for 
running behind schedule. I had to speak on the floor just 
before this hearing started. So first of all I want to welcome 
our witnesses, Secretary Vickers and General Flynn.
    Thank you for your testimony. I certainly look forward to 
hearing more and getting into the questions and answers.
    Most especially, Mr. Chairman, I want to thank you for 
holding this hearing. As you are well aware, the Intelligence 
Community is an issue that is of great interest to me, as it is 
to you, and of great importance to this committee and to the 
Congress. And I am certainly pleased that this subcommittee now 
has jurisdiction over intelligence policy within the Department 
of Defense because, like the gentleman from Texas, I also have 
the benefit of examining intelligence matters from my position 
on the Select Committee on Intelligence. So it provides great 
crossover.
    I certainly look forward to working with the gentleman to 
ensure that our intelligence efforts and resourcing are 
harmonized between the two committees, particularly with regard 
to the provision of timely and accurate intelligence to 
decisionmakers, the defeat of Al Qaeda and its affiliates, and 
the new geopolitical challenges that we face across the globe, 
and the burgeoning field also of cybersecurity.
    It is my goal to make sure that our Intelligence Community 
is properly resourced between the MIP and the NIP and that, 
wherever possible, it is well coordinated, but also, when 
necessary, deconflicted.
    So with that, in the interest of brevity and maximizing the 
utility of our time today, I would yield back so that we can 
proceed with the classified component of this hearing, but I 
would be remiss if I didn't first again welcome the panel, 
Under Secretary Vickers and Lieutenant General Flynn, who I 
might mention is a fellow Rhode Islander.
    And great to have you both here, and I certainly look 
forward to our continued work together as we work to move 
forward.
    Thank you, Mr. Chairman. I yield back.
    Mr. Thornberry. I thank the gentleman.
    And with that, the open portion of this hearing is 
adjourned, and we will reconvene immediately next door in 
closed classified session.
    [Whereupon, at 4:28 p.m., the subcommittee proceeded in 
closed session.]



=======================================================================

                            A P P E N D I X

                           February 27, 2013

=======================================================================



=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                           February 27, 2013

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] 79952.001
    
    [GRAPHIC] [TIFF OMITTED] 79952.002
    
    [GRAPHIC] [TIFF OMITTED] 79952.003
    
    [GRAPHIC] [TIFF OMITTED] 79952.004
    
    [GRAPHIC] [TIFF OMITTED] 79952.005
    
    [GRAPHIC] [TIFF OMITTED] 79952.006
    
    [GRAPHIC] [TIFF OMITTED] 79952.007
    
    [GRAPHIC] [TIFF OMITTED] 79952.008
    
    [GRAPHIC] [TIFF OMITTED] 79952.009
    
    [GRAPHIC] [TIFF OMITTED] 79952.010
    
    [GRAPHIC] [TIFF OMITTED] 79952.011
    



                                  <all>

</pre></body></html>
